Washington, D.C. 20530

December 22, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Randall Gray Webb v. United States of America,
S.Ct. No. 20-6200

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on October 22, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on December 28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6200
WEBB, RANDALL GRAY
USA

RANDALL GRAY WEBB
PRISONER ID# 30042-057
FCI BENNETTSVILLE
P.O. BOX 52020
BENNETTSVILLE, SC 29512

